Table of Contents


ABOUT THE CORPORATION FOR NATIONAL AND COMMUNITY SERVICE . . . ....... 2
MESSAGE FROM THE INSPECTOR GENERAL ......................................................... 3
AUDITS AND REVIEWS ........................................................................................5
  PENDING AUDITS AND EVALUATIONS.................................................................................................... 6
  GRANT MANAGEMENT AND OVERSIGHT ............................................................................................... 6
  PROPOSED MANAGEMENT DECISIONS ................................................................................................ 11
  AUDIT OUTREACH ACTIVITY .............................................................................................................. 13

INVESTIGATIONS............................................................................................... 15
  SIGNIFICANT CASES AND ACTIVITY...................................................................................................... 16

SUSPENSION AND DEBARMENT ........................................................................ 21
PEER REVIEW .................................................................................................... 23
  INVESTIGATIONS ............................................................................................................................. 24
  AUDIT .......................................................................................................................................... 24

REVIEW OF LEGISLATION AND REGULATIONS ................................................... 25
  EXTENSION OF WHISTLEBLOWER PROTECTIONS TO GRANTEE STAFF ......................................................... 26
  CONFERENCE SPENDING .................................................................................................................. 26
  CORPORATION POLICIES ................................................................................................................... 27

STATISTICAL AND SUMMARY TABLES................................................................ 31
  I.      INSPECTOR GENERAL ACT REPORTING REQUIREMENTS .................................................................. 32
  II.     REPORTS WITH QUESTIONED COSTS ........................................................................................... 33
  III.    REPORTS WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE ....................................... 34
  IV.     SUMMARY OF AUDITS WITH OVERDUE MANAGEMENT DECISIONS ................................................... 35
  V.      REPORTS DESCRIBED IN PRIOR SEMIANNUAL REPORTS WITHOUT FINAL ACTION ................................. 36
  VI.     AUDIT REPORTS ISSUED ........................................................................................................... 37




                                                                                                                                                   1
About the Corporation for National and Community
Service . . .
The Corporation for National and Community Service (Corporation) provides grants and
technical assistance to volunteer organizations throughout the United States to strengthen
communities, foster civic engagement, and improve the lives of all Americans serving their local
communities and the Nation. For Fiscal Year (FY) 2012, the Corporation invested $752 million
in these service organizations: AmeriCorps, Volunteers in Service to America (VISTA), the
National Civilian Community Corps, and Senior Corps. The Corporation also distributed a
substantial portion of funding through public service commissions in each U.S. state and
territory.




and The Office of Inspector General . . .

Established along with the Corporation in 1993, the Office of Inspector General (OIG or the
Office) was created to promote economy, efficiency and effectiveness in administering the
Corporation’s programs. The Office also prevents and detects waste, fraud, and abuse within
the Corporation or from the entities that receive and distribute Corporation grant funds. OIG is
an independent organization, led by a Presidential appointee, which operates separately of the
Corporation and submits its reports and recommendations to the Corporation’s Chief Executive
Officer and to the Congress.




Pursuant to the Inspector General Act of 1978, as amended, this semiannual report summarizes
OIG’s work for the last six months of FY 2012. It is being transmitted to the Corporation’s Chief
Executive Officer, Board of Directors, and Members of Congress.




2
                                                                                                    Deborah J. Jeffrey
                                                                                                    Inspector General
                                                                                                      (202) 606-9366


Message from the Inspector General


Spending the public’s money wisely and well is a fundamental responsibility of government. The
audits, investigations and related work summarized in this Semiannual Report to the Congress for
the period ending September 30, 2013, reflect the unwavering commitment of the Office of
Inspector General (OIG) for the Corporation for National and Community Service (Corporation) to
the accountability, integrity and efficiency of national service programs.

With OIG’s support and encouragement, the Corporation is reinforcing the importance of
accountability for its grantees. Developing and maintaining strong fiscal responsibility was the
central theme of this year’s AmeriCorps symposium and featured prominently in Senior Corps
training for program officers and grant applicants. CEO Wendy Spencer has underscored the need
for a culture of accountability, endorsing specific measures to ensure responsible stewardship of the
public’s investment in national service. The Corporation’s decision to evaluate potential grantees’
financial stability and capability as a key criterion for awarding funds will help to ensure that
grantees have the capacity to manage Federal funds and attract additional resources to support
national service programs. The need for rigorous financial criteria could not be clearer; in the past
six months, two of the Corporation’s grantees have filed for protection in bankruptcy, each owing
the Corporation more than $1 million1. In another case, a grantee ceased operations after
overcharging the Corporation and misdirecting grant funds totaling $1.4 million.

Along with its messaging about accountability, the Corporation must strengthen its grant oversight.
Our evaluation of fixed amount grants, in which funding depends on the number of volunteers




1
 The Corporation demanded $1,040,003 in repayment from Digital Opportunities Trust and the single audit of
Communities in Schools of Arizona Inc. questioned $2.2 million in grant costs.


                                                                                                                     3
serving rather than on the grantee’s costs, discovered that these grants lack elementary safeguards
to prevent and detect mismanagement. Although the Corporation has adopted certain stopgap
measures, the funds remain vulnerable, because the Corporation has not developed the
comprehensive risk-based measures necessary to safeguard them. Similarly, an audit of a
longstanding Senior Corps grantee uncovered a protracted course of fundamental financial
mismanagement, which went undetected by the Corporation for many years. The severity, duration
and pervasiveness of the grantee’s mismanagement raise serious questions about the adequacy of
the Corporation’s grant oversight, which was compromised by failure to act on red flags and require
correction of improper expenditures detected in the course of monitoring.

Much remains to be done to improve the Corporation’s accountability. OIG is dedicated to this task,
encouraging where possible and prodding where necessary. We appreciate the continuing support
of the Congress and the increased commitment of the Corporation’s senior executives to this vital
objective.




4
Audits and Reviews


The Office of Inspector General Audit Section reviews the financial, administrative, and
programmatic operations of the Corporation for National and Community Service. The Audit
Section’s responsibilities include supervising the audit of the Corporation’s annual financial
statements, assessing the Corporation’s management controls, reviewing the Corporation’s
operations, and auditing individual grants, contracts, and cooperative agreements funded by
the Corporation. All OIG audit reports and reviews are issued to Corporation management for
its action or information.




5
Audits and Reviews



Pending Audits and Evaluations
At the end of the reporting period, an evaluation of the Corporation’s internal controls to
prevent and detect prohibited activities in AmeriCorps and Senior Corps programs, an audit of
consultant services, and two grantee agreed-upon procedures engagements were in process.
Also underway were five grantee audits, as well as the legally required audits of the
Corporation’s financial statements and the National Service Trust, and as well as the FISMA
evaluation.

Below are highlights of particular evaluations and audits.




Grant Management and Oversight
More than One Third of Single Audit Reports Contain Significant Negative Findings
To safeguard the integrity of Federal funds, Federal law requires an annual financial and
compliance audit of any entity that expends Federal funds of more than $500,000 per year.
These audits (known as “Single Audits,” because they are required by the Single Audit Act, or as
“A-133 audits,” after the OMB Circular that prescribes the rules for them) are conducted by
public accounting firms or state auditors and paid for with Federal award funds.

As a means of ensuring timely review, every quarter, OIG furnishes the Corporation with a list
of the A-133 reports pertaining to grantees for which the Corporation is the largest source of
Federal funds, identifying those that contain findings of material weaknesses, significant
deficiencies or other findings of comparable gravity. As in the past, more than one-third (46 out
of 123) of the A-133 audit reports issued during this reporting period disclose at least one
material weakness, significant deficiency or other adverse audit finding that warranted
corrective action. OMB Circular A-50, Audit Follow Up, requires that agencies prioritize
resolution of A-133 audit issues, to include resolving audit recommendations and taking
corrective action, ensuring that resolution actions are consistent with law, regulation and
administration policy, and providing written justification of decisions disagreeing with audit
recommendations. The Corporation is also required to address questioned costs and collect
amounts due to the Corporation. It now documents A-133 audit findings in eGrants and
addresses audit findings and questioned costs with grantees. OIG will continue to identify
Corporation grantees with significant adverse audit findings and monitor the Corporation’s
progress in following up and implementing corrective actions with these high risk grantees.


6
                                                                      Audits and Reviews


Senior Corps Audit Reveals Significant Financial Mismanagement by Grantee and
Weaknesses in Grant Monitoring by Corporation
Our prior Semiannual Report described the Corporation’s response to OIG’s management alert
regarding the urgent findings of an in-progress audit of Senior Corps grantee Atlantic Human
Resources, Inc. (AHR), a Corporation grantee since 1974. That audit, since completed, details a
long course of fundamental financial mismanagement by AHR, which went undetected by the
Corporation until recently.

Our audit determined that pervasive mismanagement by the grantee seriously threatened the
integrity of grant funds awarded to AHR and the Senior Corps program. More than $868,000 in
Federal costs and $567,000 in match costs claimed by AHR during 2008-2011 under grants by
Senior Corps’ Foster Grandparents Program (FGP) and Retired and Senior Volunteer Program
(RSVP) were duplicative, unsubstantiated and/or incurred improperly, in violation of applicable
laws, regulations and grant provisions. These overcharges, which reflect fundamental
weaknesses in internal controls, represent 43 percent of the total Federal costs charged under
the grant. The audit revealed deficient financial management by AHR, including:

   •   Double-charging of travel expenses;
   •   Charges for meals that were not provided;
   •   Failure to ensure income-eligibility for means-tested benefits, as well as other missing
       Senior Corps volunteer eligibility documentation;
   •   Inconsistencies between AHR’s internal records and its periodic financial reports to the
       Federal government reflecting overcharges to the grants;
   •   Direct charges for items that were already included in AHR’s negotiated indirect cost
       rate;
   •   Misapplication of the indirect cost rates; and
   •   Complete lack of basic documentation for the RSVP grant, including the names of
       volunteers and records of their activities.




A copy of the report is available on the OIG website at http://www.cncsoig.gov/news-entry/13-
05a.

In addition, following up on a hotline call, OIG learned that AHR had issued 36 worthless
stipend checks to FGP volunteers while our audit was pending and was continuing to do so. At
the same time, the grantee was obtaining access to grant funds by representing falsely that the


                                                                                             7
Audits and Reviews
money would be used to pay the volunteers. Investigators also determined that AHR was not
reimbursing volunteer travel costs, but was charging the grant for some of those costs. These
and other related developments were the subject of a second report issued jointly by OIG
auditors and investigators, available at http://www.cncsoig.gov/news-entry/13-05b-1. That
report also described the grantee’s lack of candor with the Corporation, auditors and
investigators.

This second report also noted that the severity, duration and pervasiveness of AHR's
mismanagement raised questions about the adequacy of the Corporation’s grant oversight.
That report summarized a lack of action on red flags and failure to require correction of at least
one cost principle violation that was detected in the course of monitoring. We recommended a
comprehensive review of the Corporation’s grant monitoring procedures.

Further, OIG took the unusual step of recommending that the Corporation review the costs
charged by AHR against the FGP and RSVP grants for the years preceding the audit period, to
determine whether the irregularities found by OIG also occurred during those years and
disallow any improper amounts. The specific policies and practices that resulted in substantial
overcharges during the audit period were also in effect during those prior years. We also
recommended that the Corporation expand review of volunteer eligibility beyond our sample
and that of a prior A-133 audit, because both of those samples showed a high incidence of
failure to establish income eligibility or conduct statutorily required criminal history checks. A
substantial portion of the $1.1 million in stipends that AHR paid out during the audit period
may be disallowable.

The Corporation has since cut ties with AHR and is attempting to recoup the questioned grant
costs found in our audit report. The prospects for collection are uncertain. According to public
reports, another Federal program has also terminated its relationship with AHR, and a lien was
placed on its bank accounts in connection with an unrelated civil suit. AHR’s Executive Director
also resigned from his position shortly before the issuance of our final audit report.

SIF Subgrantees Did Not Conduct Adequate Background Checks, and One Subgrantee
Allowed Sex Offender to Staff Grant-Funded Program
A review of Social Innovation Fund (SIF) intermediary grantee Edna McConnell Clark Foundation
(EMCF) and three of its subgrantees questioned grant costs totaling $647,535 (consisting of
$348,413 in Federal share, EMCF match costs of $83,270, and subgrantee match costs of
$215,852). The majority of these costs stem from deficiencies in the criminal history and sex
offender registry checks that are statutorily prescribed for staff and volunteers. Our audit found
a few other discrete instances of noncompliance with applicable requirements but no other


8
                                                                          Audits and Reviews
major financial weaknesses in either ECMF or the subgrantees. EMCF appears to exercise
responsible oversight of its subgrantees, including engaging an accounting firm to conduct
many of its financial monitoring activities, including periodic site visits and desk audits to review
payroll, indirect costs, travel and supplies expenses.

One of the subgrantees, however, permitted two employees with disqualifying criminal
histories (one of them a sex offender) to work on a program funded by the grant. In both cases,
the organization’s management recognized that they were ineligible, but they were
nevertheless assigned to work on the grant-funded program. The subgrantee removed the two
individuals just prior to the auditors’ site visit. Allowing these two employees to work on the
grant exposed the public and their coworkers to unnecessary risk.



Inadequate Internal Controls Prevent the Corporation from Mitigating Significant
Risks Inherent in the Fixed Amount Grants Program
In 2009, Edward M. Kennedy Serve America Act for the first time authorized the Corporation to
award grants in fixed amounts, based on the hours worked by members to be enrolled in
national service positions, without a matching requirement. 42 U.S.C. § 12581(l). Unlike the
Corporation’s traditional grants, which reimburse a grantee for program costs, a fixed grant
awards a specified amount (not to exceed $13,000 for AmeriCorps, $4,600 for Senior Corps) for
each full-time national service member. The structure was intended to minimize the
administrative burdens on grantees and thus encourage smaller organizations to participate in
national service.

The fixed amount grant program has placed $240 million at financial risk, due to a lack of
meaningful safeguards against waste, fraud or mismanagement. Over the past four years, the
Corporation expanded this program without evaluating the risks inherent in its structure or
mitigating those risks with measures to prevent or promptly detect excessive drawdowns of
grant funds. A grantee is able to access the funds at will, and to expend its entire award even if
it falls far short of the volunteer enrollment levels on which the award is based. The
Corporation continues these grants from one year to the next, essentially advancing funds,
without reassessing the grantee’s creditworthiness or compliance with financial requirements.
Taxpayers have been fortunate to escape losses, despite this vulnerability.

This luck ran out, however, in the case of Digital Opportunities Trust (DOT), one of AmeriCorps’
largest fixed amount grantees. DOT never maintained the contemplated level of enrollment,
but the Corporation continued to fund the grant for three years, while the organization’s



                                                                                                   9
Audits and Reviews
financial condition deteriorated. Each year, DOT spent all of the funds, far more than it was
entitled to spend based on its enrollment.

At the end of the grant’s second year, DOT was $687,427 in debt to the Corporation. Instead of
taking immediate collection steps, the Corporation deferred the problem and optimistically
extended funding. It hoped to recover the difference by continuing the grant for a third year,
while expecting DOT to: (1) reach a retention level of 280 members, which DOT had failed to
achieve in years one and two; and (2) shoulder a greater share of the program costs, sufficient
to offset the prior excessive drawdowns. Both of these expectations proved unrealistic.

Before the end of the third year, DOT expended the entire grant amount, owed the Corporation
more than $1 million, shut down the program and declared bankruptcy. This left the
community underserved and the taxpayers holding the bag.

To avoid further losses on other fixed amount grants, OIG recommended that the Corporation
adopt effective, risk-based monitoring, internal controls and other measures. Our 17 detailed
recommendations included suggesting that the Corporation, like other grant-making agencies,
cap the portion of a grant that can be expended each quarter and more frequently reconcile
expenditures vs. enrollment.

Grantee Financial Distress Threatens Performance, Demonstrates Need for Ongoing
Evaluation of Financial Risks
OIG oversight has revealed signs of financial distress in the grantee community during the
reporting period. Two grantees have sought protection in bankruptcy, leaving substantial debts
to the Corporation, while others are in dissolution or have ceased operations. The Corporation
has begun to use third-party vendors for information concerning whether prospective grantees
are financially stable at the time of an award, an innovation that OIG hopes will help to mitigate
these financial risks. However, recent experience shows that a grantee’s financial condition can
deteriorate quickly within a single grant cycle, we believe that the Corporation should verify the
grantee’s continued stability as part of its monitoring, especially before funding successive
years of a three-year grant. This precaution would have averted some of the losses detailed in
our report on fixed amount grants.




10
                                                                         Audits and Reviews
OIG Audit Report No. 12-04 –Still Awaiting Response to FY 2011 Audit Finding that
AmeriCorps Grantees Unjustifiably Certify Partial Education Awards for Individuals
Who Do Not Fulfill Their Service Commitments Without Compelling Personal
Circumstances
An AmeriCorps grantee may approve a partial education award to an individual who does not
complete the full term of service because of “compelling personal circumstances” (CPC), as set
defined forth in 45 C.F.R 2522.230. OIG undertook an audit of CPC determinations in FY 2011
because of recurring findings in prior audits and investigations that grantees were approving
such awards for early-exited members who did not meet the criteria. Our audit found wide-
spread noncompliance — for 75 percent of the tested population did not meet the standard for
CPC partial awards. Our findings cited invalid CPC justifications, supporting documentation
deficiencies, and a lack of monitoring controls, discrepancies, resulting in total questioned costs
of $328,574, of which $120,352 was identified as improper payments. We recommended that
the Corporation disallow and recover the questioned costs, and require centralized review of
CPC determinations, to ensure accuracy and consistency, and implement monitoring controls
requiring a secondary level of review of each approved CPC case. Moreover, grantees did not
document the basis for these decisions.

Consistent with OMB Circular 50, Audit Follow up, and the Corporation’s policies, management
was expected to resolve OIG’s findings and recommendations issue its decision, indicating
agreement or disagreement on reported findings and recommendations, no later than May 9,
2012. OIG is still awaiting that decision.

The delay is unfortunate. OIG audits continue to find that AmeriCorps programs are authorizing
partial education awards in circumstances that do not meet the standard of CPC. The
Corporation currently lacks controls to prevent improper payment of partial education awards
or to detect and recover them after the fact.


Proposed Management Decisions
Draft Management Decisions with Which the OIG Disagreed
OIG did not entirely concur with the Corporation’s Draft Management Decisions for the
following reports:

Report No. 11-16, Agreed-Upon Procedures for Corporation for National and Community
Service Grants Awarded to Serve Guam Commission.




                                                                                                11
Audits and Reviews
Report No. 12-11, Agreed-Upon Procedures for Corporation for National and Community
Service Grants Awarded to The New Teacher Project

Report No. 12-12, Agreed-Upon Procedures for Corporation for National and Community
Service Grants Awarded to AIDS United.




12
                                                                        Audits and Reviews
Management Decision for the First Audit of a SIF Grantee
OIG received the Corporation’s management decision for a prior agreed-upon procedures
review performed of AIDS United, a Washington-based non-profit. We recommended a number
of improvements, including strengthening controls over the grantee’s monitoring of its
subgrantees, enhancing policies and procedures for administering both the AmeriCorps and SIF
grants, and adhering to the grantee’s negotiated agreement for claiming indirect costs. We also
recommended that the Corporation calculate and recover the appropriate amount of
disallowed costs based on the questioned costs reported.

The Corporation agreed with 11 of the 13 recommendations and $148,000 of the $395,000
questioned costs. The Corporation decided to allow the costs relating to required criminal
history checks for subgrantee staff because the Corporation had concluded that its prior
guidance to the grantee community had been unclear. It has since provided training to the SIF
grantee community and continues to develop further guidance. OIG is satisfied with this
approach. Both the Corporation and AIDS United have responded to the remaining
recommendations and have advised us of measures to prevent recurrence of these issues.


Audit Outreach Activity

The Audit Section continued its active participation in a variety of events designed to keep the
grantee community and general public informed of OIG initiatives and other activities. In July,
we were pleased to be included in the second Internet Virtual Conference sponsored by the
Senior Corps program office. This live conference, a unique experience for the OIG, employed
the latest technology to convert the OIG conference room into a virtual broadcasting studio. It
featured the Inspector General in a 60-minute nationwide presentation to Senior Corps
grantees and program sites. Her presentation highlighted the mission and structure of the OIG,
common audit findings, fraud indicators, and examples of recent audits and investigations.
More than 600 participants viewed our presentation live, with others watching the recorded
session.

Our outreach activities were capped off in September with multiple presentations at the 2013
AmeriCorps State and National Grantee Meeting in Washington, DC. The large audience for this
meeting was comprised of intermediaries and subgrantees that were awarded AmeriCorps
funding in each of the last three grant cycles. The Inspector General took part in a plenary panel
discussion about accountability at the Corporation, setting the tone for specific working
sessions about particular compliance and oversight subjects. The OIG Assistant Inspector
General for Audit conducted a detailed presentation focused on grantee accountability,



                                                                                               13
Audits and Reviews
describing common audit problems and ways to prevent them. He also answered general
questions about recent AmeriCorps audits and their findings, the Office of Management and
Budget grant reform and other topics. The Inspector General also met with the State Directors
and other staff of the Office of Field Liaison, responsible for overseeing Senior Corps and VISTA
programs throughout the United States. Considering the inherent risk of the Corporation’s large
grant portfolios, we appreciate the opportunity to attend these annual meetings and
communicate directly with grantees and key Corporation personnel regarding our approach
and methodology to enhance the effectiveness of their grant administration.




14
Investigations


The Investigations Section is responsible for the detection and investigation of fraud, waste,
and abuse in the Corporation’s programs and operations. The Section probes allegations of
serious—sometimes criminal—misconduct involving the Corporation’s employees, contractors
and grant recipients that threatens the integrity of the Corporation’s service initiatives.
Evidence of serious criminal or fraudulent conduct is referred to the appropriate United States
Attorney or, in some instances, to a local district attorney for criminal or civil prosecution and
monetary recovery. Other investigative results are referred to Corporation management for
information or administrative action.




15
Investigations



The Investigations Section processed sixty-eight (68) Hotline reports, opened sixteen (17)
investigations and completed twenty-three (23) investigative actions. Three (3) matters were
referred to the Department of Justice or local prosecutors for criminal or civil enforcement.
Management reported back to us regarding twenty-three (23) investigations previously
referred to them by the Section. Highlights of selected investigations closed during this period
are reported below.

We continue to see an increase in reported incidents of fraud, waste and abuse. For FY 2013,
we processed a total of 142 hotline actions compared to 95 for FY 2012, an increase of 33
percent. Although some Hotline inquiries can be resolved quickly, many require more
substantial attention. This has led to a pronounced upswing in investigations from FY 2012.
The Section's three investigators have initiated 43 investigations for FY 2013, as compared to 22
investigations for all of FY 2012.

In the face of this increasing demand, decreasing resources have impacted our ability to fully
pursue wrongdoers and obtain recoveries. Together, the increased workload and shrinking
budget have impaired our ability to interview witnesses and potential targets in timely fashion
and develop facts thoroughly. Consequently, OIG has been compelled to forgo or defer
criminal investigations and to rely on Corporation management, State Commission personnel
and grantees to review and take appropriate actions on some matters reported to the OIG.


Significant Cases and Activity
VISTA Supervisor Conspired with Members to Conceal Members’ Status as Full-Time
Students

Ms. Rosaluz Molina, a VISTA supervisor with the Municipality of Caguas, PR, conspired with 11
AmeriCorps VISTA members to conceal the fact that these individuals were enrolled as full-time
students and therefore ineligible for participation as VISTA members. Ms. Molina also falsely
certified their eligibility for education awards that can be used to pay college tuition or repay
student loans.       The 11 VISTA members received $142,003.30 of living allowances and
education awards to which they were not entitled. Ms. Molina pled guilty to making a false
statement, was sentenced to 18 months’ probation and was also debarred from doing business
with the Federal Government for a period of three years. The 11 former VISTA members were
placed in the U.S. Attorney’s pretrial diversion program. The Municipality of Caguas agreed to a
settlement of $160,000 to reimburse the Corporation.


16
                                                                                      Investigations


AmeriCorps Director and Staff Conspired to Steal Federal Program Funds

Working with the Federal Bureau of Investigation in Miami, FL, OIG discovered that Ms. Shante Sweet,
Executive Director of the Miami AmeriCorps Community Emergency Support (ACES) Program, Miami, FL,
conspired with Ms. Ashley Rolle and Ms. Simone West to steal $31,632.90 in federal program funds. Ms.
Sweet allowed Ms. West and Ms. Rolle to enroll in the AmeriCorps program without performing services,
in return for half of their living stipends.

Following trial in the U.S. District Court for the Southern District of Florida, Ms. Sweet was convicted of
Theft of Federal Program Funds and sentenced to three years probation, 180 days’ home detention with
electronic monitoring and ordered to perform 100 hours of community service and make restitution in
the amount of $21,932. Ms. Rolle and Ms. West were also convicted, sentenced to 18 months probation
and ordered to perform 80 hours of community service and make restitution of $4,801 in the case of Ms.
Rolle and $4,899.90 in the case of Ms. West.

Ms. Rolle, Ms. West and Ms. Sweet were debarred by the Corporation’s Suspension and Debarment
Official from doing business with the Federal Government for a period of three years.


Alaskan Grantee Fails to Support its Grant Expenditures

Working with staff from the Corporation’s Field Financial Management Center, OIG investigated
allegations of serious financial misconduct by Alaska Community Service (ACS), Anchorage, AK, sponsor
of four Senior Corps programs. The investigation identified $266,020.40 in unallowable costs and
determined that the grantee improperly transferred funds between grants to pay non-allowable
operational expenses and paid staff from funds reserved for volunteer stipends and expenses.
Corporation management issued a debt letter to the grantee for $266,020.40 to recoup the unallowable
costs.


Corporation Pursues Recovery of Funds Based on OIG Investigation

As reported in SAR 2013-01, an OIG investigation determined that the United Way of Jefferson County
Retired Senior Volunteer Program (RSVP), Pine Bluff, AR, misused $85,697.40 for expenses not related to
the RSVP grant. The program failed to maintain adequate timesheets for RSVP staff, drew down funds
for unfilled positions, reprogrammed funds without authority and compensated unauthorized individuals
from grant funds. Corporation management has issued a debt letter to the grantee to recoup
$85,697.40.




                                                                                                        17
Investigations
Senior Corps Grantee Diverts Funds from Volunteers

In conjunction with an audit of Senior Corps grantee Atlantic Human Resources (AHR), Atlantic City, NJ,
investigators determined that AHR issued approximately $4,500 in worthless checks to low-income
Foster Grandparent Program (FGP) volunteers and did not pay approximately $2,500 in mileage
reimbursements to Retired and Senior Volunteer Program (RSVP) volunteers. These investigatory
findings supplemented an ongoing audit, reported at http://www.cncsoig.gov/news-entry/13-05a and
http://www.cncsoig.gov/news-entry/13-05b-1. The Corporation suspended the grants to AHR and
found a substitute sponsor for the Foster Grandparents and RSVP programs.


VISTA Project Placed Members at For-Profit Business

OIG discovered that Mr. Kelly Ewing, Jr., Executive Director of Philmont Nonprofit Development Center,
Camden NJ, improperly placed VISTA members at JAE Enterprises Inc., a for-profit business run by his
wife. Another VISTA member served under the supervision of her father in violation of the program’s
nepotism policy. Corporation management identified $48,947.41 in unallowable costs; however,
management reported that it would not be recouping the unallowable costs.


National Civilian Community Corps Manager Made Personal Use of Government
Vehicle

Following up on a Hotline Report, OIG determined that Mr. Christopher Wade Williams, Deputy Director
of Operations of the Vicksburg National Civilian Community Corps (NCCC) violated program rules by
repeatedly using a government vehicle for personal purposes. In addition to this program violation by a
senior supervisor, the investigation found that the NCCC facility lacked adequate controls to ensure
responsible use of vehicles. Mr. Williams was required to complete supervisory training. The staff was
required to update the facility’s control policies and complete a property inventory within 30 days.


AmeriCorps Member Placed as Teacher Rather Than Volunteer

An AmeriCorps member assigned to the Calumet Public School District, Calumet, OK, was required to
serve as a substitute for a classroom teacher out on maternity leave for three months. By law,
AmeriCorps members may not be used as substitute employees. School officials deliberately misled
AmeriCorps about the assignment by having the AmeriCorps member return to volunteer duties when
the AmeriCorps supervisor visited the site. Corporation management disallowed 197.5 member service
hours. Further, they decided not to permit AmeriCorps members to serve in the school district in the
future.




18
                                                                          Investigations
Program Director Sentenced for Misuse of AmeriCorps Funds


Mr. Richard Parks, the former Salt Lake County Resource and Development Division’s
AmeriCorps Program Director, Salt Lake, UT, pled guilty to Wire Fraud and Theft of Federal
Funds in Federal court, was sentenced to 36 months’ probation and required to make
restitution in the amount of $13,907. Working with the Federal Bureau of Investigation, Salt
Lake, UT, OIG investigators discovered that Mr. Parks misused more than $95,000 in Federal
program funds when he enrolled ineligible individuals and falsified member time sheets for
non-service hours.




                                                                                         19
Investigations




                                  Investigative Summary of Actions
          Fiscal Year                FY 2009      FY 2010         FY 2011         FY 2012         FY 2013
 Investigative actions opened          40           39              42              22               43
Investigative actions resolved
                                        43           46              35              42              36
          and closed
  Average monthly caseload              32           32              34              26              23
Investigative matters resolved
  without opening a separate            40           45              39              51              67
      investigative action
   Referrals for prosecution            3            9               8               4               7
     Investigative recoveries 2     $1,317,227    $634,803        $447,854       $2,846,203       $590,943
      Cost avoidance3                $300,000    $1,218,178      $1,666,294      $2,321,521      $1,078,316
Administrative or management
                                        16           20              14              17              23
        action taken
2
  Includes money received by the Corporation or other government agencies as a result of OIG investigations,
including joint investigations with another OIG, Federal, or State investigative element.

3
  When OIG investigative action identifies a systemic practice that has subsequently been stopped or modified
due to some type of OIG investigative interdiction, any clear and unmistakable savings to the Corporation are
reported as cost avoidance.




20
Suspension and Debarment


Suspension and debarment are remedies intended to protect the Federal Government from
doing business with individuals or entities whose conduct has shown that they cannot be
trusted to conduct business reliably, in compliance with the law, rules and regulations and with
integrity. When the Office of Inspector General discovers serious misconduct that casts doubt
on the present responsibility of a grantee, grantee staff or other party, it recommends that the
Corporation impose debarment to prevent future harm to Federal programs and operations. If
the Corporation begins suspension or debarment proceedings, the respondent has an
opportunity to demonstrate that it should not be excluded from transactions with the
government.




21
Recent Activity
In the last six months, four individuals were debarred upon recommendation by OIG. Seven
debarment recommendations are currently pending before the Corporation. Three of the
pending matters arose from criminal convictions for embezzlement of grant funds. While the
Corporation has made progress clearing its backlog of debarment recommendations, three of
our recommendations for debarment have been pending for more than six months.

AmeriCorps Director and Staff Conspired to Steal Federal Program Funds Found
Guilty and Debarred
As noted in preceding summary of investigations, the Executive Director of an AmeriCorps
program in Miami, FL enrolled two individuals in AmeriCorps with the understanding that they
would not perform services, receiving in return a share of the improperly obtained living
allowance payments. Based on their criminal convictions, the Corporation debarred all three
from doing business with the Federal Government for a period of three years.

Audit and Investigation of American Samoa Leads to Debarment of Former State
Commission Chair, now serving as Judge
An OIG audit and investigation determined that Mr. Muasau Tofili, former Chair of the Board of
the American Samoa Special Services Commission (Commission) abdicated his oversight
responsibilities and thereby allowed Federal grant funds to be fraudulently spent for
retreats/personal vacations, including one in which he participated. The audit report
summarizing OIG’s findings is available at http://www.cncsoig.gov/news-entry/11-06. Promptly
upon completion of the audit/investigation in January 2011, OIG recommended that Mr. Tofili
be debarred. The Corporation did not act upon this recommendation for more than two years,
until May 2013, when the Corporation debarred him for a period of one year. In the interim,
Mr. Tofili was nominated and confirmed by the legislature as an Associate Judge of the High
Court of American Samoa.



Former Michigan Community Service Commission Employee Debarred After
Conviction
Based on information developed during an OIG audit, the State of Michigan prosecuted former
employee Ms. Michelle Metzmaker for misusing Federal funds awarded to the Michigan
Community Service Commission. The Corporation debarred her for a period of two years,
following her conviction, on the recommendation of OIG.




22
Peer Review


Offices of Inspector General (OIG) are required to include in their semiannual reports to
Congress the “results” of peer reviews of their offices, as well as outstanding and not fully
implemented recommendations from peer reviews the OIG received from another OIG, and
outstanding and not fully implemented recommendations the OIG made in any peer review it
performed for another OIG. The specific statutory requirements for this reporting is contained
in Section 989C of Public Law 111-203, which amended Section 5 of the Inspector General Act
of 1978.




23
Investigations
OIG investigators conducted a Peer Review of the U.S. Nuclear Regulatory Commission, Office
of Inspector General, investigative operations, (NRC-OIG) in September 2013. The system of
internal safeguards and management procedures for the investigative function of the NRC-OIG
in effect for the three year period ending August 31, 2013, is in full compliance with the quality
standards of the Council of the Inspector General on Integrity and Efficiency (CIGIE) and the
Attorney General Guidelines. The safeguards and procedures provide reasonable assurance
that the NRC-OIG is conforming to professional standards in the conduct of its investigations.
The final report was pending administrative processing at the end of the SAR period. Available
at: http://www.cncsoig.gov/2012-investigations-peer-review

The most recent report of a peer review of our investigative operations was issued September
19, 2012, by the Federal Reserve Board, Office of Inspector General (FRB OIG). It confirmed
that: “the system of internal safeguards and management procedures for the investigative
function of the CNCS OIG in effect for the period May 2011, through May 18, 2012, is compliant
with the quality standards established by CIGIE and the Attorney General Guidelines. The
safeguards and procedures provide reasonable assurance that the CNCS OIG is conforming to
professional standards in the planning, execution and reporting of its investigations. Our
Investigations Section’s next peer review is scheduled for FY 2015.


Audit
The Audit Section’s most recent Peer Review Report was issued February 27, 2013 by the
Smithsonian Institution OIG. External peer reviews are conducted within the OIG community to
evaluate the audit organization’s system of internal quality control and to ensure that it
complies with generally accepted government auditing standards (the GAO Yellow Book). The
report confirmed that: “the system of quality control for the CNCS OIG in effect for the year
ending September 30, 2012, has been suitably designed and complied with to provide the CNCS
OIG with reasonable assurance of performing and reporting in conformity with applicable
professional standards in all material respects.” The CNCS OIG Audit Section received a peer
review rating of pass. Available at: http://www.cncsoig.gov/2012-Peer-Review

Our Audit Section conducted a quality control review of the audit operations of the Office of
Inspector General, National Science Foundation (NSF). As part of the peer review, we evaluated
the NSF OIG’s staff qualifications, their independence, audit work, training, and quality control
procedures. NSF received a pass rating, the results of this peer review can be found on the NSF
OIG’s website at www.nsf.gov/oig. The Audit Section’s next peer review will take place in FY
2015.


24
Review of Legislation and Regulations


Section 4(a) of the Inspector General Act directs the Office of Inspector General to review and
make recommendations about existing and proposed legislation and regulations relating to the
Corporation’s programs and operations. The Office of Inspector General reviews legislation and
regulations to determine their impact on the economy and efficiency of the Corporation’s
administration of its programs and operations. It also reviews and makes recommendations on
the impact that legislation and regulations may have on efforts to prevent and detect fraud and
abuse in Corporation programs and operations. The Office of Inspector General draws on its
experience in audits and investigations as the basis for its recommendations.




25
Legislation and Regulations



Extension of Whistleblower Protections to Grantee Staff
The Defense Authorization Act of 2013 protects employees of Federal contractors and grantees
from retaliation for disclosing wrongdoing and establishes a process to redress violations. The
protections apply to grants and contracts executed or modified after July 1, 2013. OIG is
charged with responsibility for investigating reprisal allegations, has created a Hotline reporting
channel and is explaining these protections in presentations to grantees and Corporation
personnel.

The statute requires every Federal contract or grant to include a clause prohibiting the
counterparty from discharging, demoting, or taking other action against a whistleblowing
employee. We understand that the Department of Defense, General Services Administration
and the National Aeronautics & Space Administration have proposed to revise the Federal
Acquisition Regulation to implement these enhanced protections and have informed the
Corporation of this activity.   We understand the Corporation will await a formal clause
approved by the Federal Acquisition Council in lieu of developing a local clause. Further, the
Corporation has not yet published an appropriate notice in their grant documents. The
Corporation has not yet determined the clause to be included in future grants.


Conference Spending
Earlier this year, Congress enacted new requirements that Federal agencies report to their OIGs
detailed information on conference spending. On September 20, 2013, we received a list of all
conferences and training sessions which involved Corporation employees and Corporation
grantees. By utilizing virtual technologies, as in the case with the Senior Corps Conference, the
agency reported a savings of 18% when compared to the 2012. We would encourage the
Corporation to continue to use new technologies whenever possible to further reduce these
training costs.

By letter dated August 21, 2013, Senator Charles Grassley requested information from CEO
Wendy Spencer concerning two cooperative agreements, one for VISTA training and the other
for five regional training conferences for AmeriCorps and Senior Corps, reported in our previous
Semiannual Report. The letter also seeks historical information on Corporation conference
spending since 2008. The request is pending a response.




26
                                                              Legislation and Regulations



Corporation Policies
Recommended Changes to the Anti-Fraud Policy
In connection with the Corporation’s announced initiative to promote accountability, OIG made
recommendations to strengthen and clarify the obligation of Corporation staff and grantees to
report potentially criminal misconduct to OIG. Our proposal would bring the Corporation’s
policy into conformity with the policies of other Federal agencies and would require that OIG be
notified of:

information or evidence suggesting criminal conduct, such as, but not limited to:

(a) dishonesty, fraud, theft, embezzlement, misapplication of misuse of Government funds or
property;

(b) submission of false or fraudulent claims or statements, including to auditors or
investigators;

(c) forgery, falsification or unauthorized destruction of Government records or records relating
to Government grants;

(d) corruption, bribery, kickbacks, acceptance of illegal gratuities or extortion; and

(e) interference with the administration of a Government grant or program; and

(f) misconduct by a high-level officer or executive of the Corporation.

We also recommended that Corporation policies address the specific obligations of Corporation
personnel, contractors and grantees to cooperate with OIG inquiries and not to impede or
retaliate against anyone who provides information. Finally, we proposed clarifying and
strengthening the whistleblower protections for grantee and contractor personnel.

In the course of an investigation, OIG became aware that the Corporation has eliminated grant
provisions requiring that serious misconduct be reported to OIG. Beginning in 2008, without
notice to OIG, the Corporation weakened the reporting requirements contained in the
AmeriCorps terms and conditions. The provisions were diluted from requiring grantees to
notify OIG of waste, fraud, abuse, criminal conduct or losses of Federal funds or



                                                                                             27
Legislation and Regulations
property/services supported with Federal funds, to merely encouraging them to inform OIG of
undefined criminal violations. The Senior Corps grant provisions contain no reporting
requirement (though non-binding guidance encourages reporting). Timely reporting by grantee
personnel enables OIG’s trained professionals to investigate dishonesty, fraud and other
misconduct that threatens the integrity of Corporation grants and ensures that evidence is
properly preserved and available in the event of a prosecution. OIG has strongly recommended
that the grant terms be restored to their prior scope and strength.

OIG made these recommendations in May 2013. We are awaiting the Corporation’s response.

Participation in Corporation’s Policy Council
OIG continued its active participation in the Corporation’s Policy Council, which is charged with
developing and amending internal policies covering all agency operations. Based on our audit
experience and familiarity with the Corporation’s operations and internal controls, the OIG
suggests revisions to proposed Corporation policies to strengthen the internal controls and to
ensure that Federal funding is appropriately spent.

During this reporting period, the OIG reviewed and provided recommended revisions, of which
the Corporation accepted and incorporated, for the following finalized policies:

     •   Records Management Policy
     •   Monitoring Plan Activity Documentation
     •   Grant Application Review Procedures Manual

Also during this reporting period, the OIG provided comments to the Corporation for the
following policies, which are pending revision:

     •   Oversight and Monitoring Activities
     •   Computer Property Management
     •   Capital Planning and Investment Control Policy
     •   Structured Systems Development
     •   Life-Cycle Methodology
     •   Acceptance and Use of Gift Funds
     •   Property Management Policy
     •   Closeout of Grants Awards
     •   The CNCS Integrity Framework
     •   Office of Inspector General Investigation Findings
     •   Grant Fund Holds for Late Reporting


28
                                                           Legislation and Regulations
   •   Acquisition Policy
   •   Denial and Reduction of Refunding
   •   Continuity of Operations Plan


The Corporation made significant changes to the “Denial and Reduction of Refunding” policy
listed above based on OIG input. This is a Senior Corps policy on how procedures are
implemented when Corporation staff determines that an application from a current Senior
Corps grantee should be rejected, or that funding should be reduced by 20 percent or more.
Based on our suggestions, the Corporation clarified the relationship of this policy to the new
RSVP competition requirements; added language to specify that emergency or immediate
actions would be handled through other remedies, including suspension of the grant; and other
administrative changes. We also recommended that the Corporation include additional
examples for denial of funding, such as, significant findings from OIG audits/investigations,
single audits, and Corporation monitoring. The Corporation has denied grantee funding for
these issues and incorporating these examples into the policy would be useful. The Corporation
agreed to include these additions in the future.

OIG Comments for Corporation’s New Strategic Plan: IT and Accountability
By Federal Register notice in July, the Corporation invited comments from its grantees,
partners, and the public on updating the Corporation’s current Strategic Plan. According to
OMB guidance, a Strategic Plan should define a Federal agency’s mission, long-term goals,
strategies planned, and approaches it will use to monitor its progress in addressing specific
national problems, needs, challenges, and opportunities related to its mission. It also should
provide context for decisions about performance goals, priorities, strategic human capital
planning and budget planning.

In response, OIG recommended that two substantive changes for incorporation into the new
strategic plan: (1) dramatic improvement of the core Information Technology (IT) enterprise
structure to meet current needs and accommodate future requirements; and (2) expanded
discussion of accountability as a strategic objective.

The core IT system supporting the Corporation is over 15 years old, comprised of patch-and-fix
solutions that have left an increasingly fragile system incapable of efficiently providing
information useful to agency senior leadership in making critical business decisions. Extracting
information is laborious and time-consuming, resulting in delays while the Corporation’s
handful of experts develops scripts to produce new reports. The current strategic plan
contemplates marginal and incremental improvements.



                                                                                             29
Legislation and Regulations
OIG believes that the Corporation’s IT system should play an increasingly important role in
optimizing grant monitoring, including through the use of data analytics—comparisons across
the grant portfolio to detect patterns and trends (both positive and negative) and notify
program and grant officers of individual anomalies. Technology better aligned with the
Corporation’s business processes will enable the organization to deploy its specialists according
to where they add the most value. It can also support timely intervention to mitigate risks and
minimize losses. The need for more effective monitoring will only increase with the ongoing
expansion of national service via partnerships with other Federal agencies, which will, in turn,
increase the pressure on already stressed existing systems. Better IT is necessary for more
efficient and effective oversight.

Deserving public confidence in the operation of national service is a core value that should
underlie every aspect of the Corporation’s operations. To that end, accountability should
feature more prominently in the next strategic plan. OIG therefore recommended adding a
fifth Core Principle to the Strategic Plan: “Holding ourselves and our grantees accountable,”
with emphasis on stewardship and maintaining the public trust. This should include developing
and adhering to strong internal controls. The Corporation should make clear that it will do not
merely the minimum required by law but will maintain the high standards expected of stewards
of public funds.




30
Statistical and Summary Tables


The statistical and summary tables in this section are submitted in compliance with the
requirements enumerated in the Inspector General Act.




31
Tables
I.     Inspector General Act Reporting Requirements
This table cross-references the reporting requirements prescribed by the Inspector General Act
of 1978, as amended, to the specific pages in the report where they are addressed.




     Section                             Requirement                                   Page
     4 (a)(2)                  Review of legislation and regulations                    25

                   Significant problems, abuses, and deficiencies related to the
     5 (a)(1)                                                                        Throughout
                      administration of Corporation programs and operations

                  Recommendations with respect to significant problems, abuses
     5 (a)(2)       and deficiencies found in the administration of Corporation
                                                                                     Throughout
                                     programs and operations
                   Prior significant recommendations on which corrective action
     5 (a)(3)                                                                           36
                                       has not been completed

     5 (a)(4)               Matters referred to prosecutorial authorities               19
                                                                                     None this
     5 (a)(5)         Summary of instances where information was refused
                                                                                      period
                   List of audit reports by subject matter showing dollar value of
     5 (a)(6)                                                                           34
                             questioned costs and unsupported costs.
     5 (a)(7)                     Summary of significant reports                     Throughout

                  Statistical table showing number of reports and dollar value of
     5 (a)(8)                                                                           33
                                          questioned costs

                  Statistical table showing number of reports and dollar value of
     5 (a)(9)                                                                           34
                         recommendations that funds be put to better use
                  Summary of each audit issued before this reporting period for
     5 (a)(10)    which no management decision was made by end of reporting             36
                                            period
                                                                                     None this
     5 (a)(11)              Significant revised management decisions
                                                                                      period
                    Significant management decisions with which the Inspector
     5 (a)(12)                                                                          11
                                       General disagrees




32
                                                                                              Tables
II.       Reports with Questioned Costs


                                                            Federal Costs

               Report Category                  Number Questioned Unsupported
                                                            (Dollars in thousands)
A. Reports for which no management decision       7          $3,560                  $2,728
   had been made by the commencement of
   the reporting period

B. Reports issued during the reporting period     2          $1,217                   $734

C. Total Reports (A + B)                          9          $4,777                  $3,462

D. Reports for which a management decision        3            $470                    $47
   was made during the reporting period

      I. Value of disallowed costs                             $189                    $29

      II. Value of costs not disallowed                        $281                    $18

E. Reports for which no management decision       6          $4,307                  $3,415
   had been made by the end of the reporting
   period (C minus D)

F. Reports with questioned costs for which no     4          $3,090                  $2,681
   management decision was made within six
   months of issuance




                                                                                                  33
Tables
III. Reports with Recommendations That Funds Be Put To
Better Use



                                                                 Dollar Value (In
                     Report Category                    Number
                                                                  thousands)

      Reports for which no management decision had
 A.   been made by the commencement of the reporting      7           $3,478
      period

 B.   Reports issued during the reporting period          0             $0

 C.   Total Reports (A + B)                               7           3,478

      Reports for which a management decision was
 D.                                                       3           $144
      made during the reporting period

             i. Value of recommendations agreed to
                                                                       $18
      by management

              ii. Value of recommendations not agreed
                                                                      $126
      to by management

      Reports for which no management decision had
 E.   been made by the end of the reporting period (C     4           $3,334
      minus D)

      Reports for which no management decision was
 F.                                                       4           $3,334
      made within six months of issuance




34
                                                                                         Tables

IV.   Summary of Audits with Overdue Management Decisions



                                          Federal        Mgmt.       Status at End
 Report
                       Title              Dollars       Decision     of Reporting
 Number
                                         Questioned       Due           Period
                                          (Dollars in thousands)       (09/30/13)
                                                                    The Corporation
          Audit of Earned Education
                                                                    has not issued a
          Awards Resulting from
  12-04                                      $0          5/9/2012   Draft
          Compelling Personal
                                                                    Management
          Circumstances
                                                                    Decision for this.
                                                                    The Corporation
          Audit of Trust Payments to                                has not issued a
  12-08   Education & Financial              $0         10/3/2012   Draft
          Institutions                                              Management
                                                                    Decision for this.
                                                                    The Corporation
                                                                    has not issued a
  12-10   IPERA Compliance Evaluation        $0          9/7/2012   Draft
                                                                    Management
                                                                    Decision for this.

          Agreed-Upon Procedures for                                The Corporation
          Corporation for National and                              has not issued a
  12-13   Community Service Grants          $392        2/15/2013   Draft
          Awarded to the Oregon                                     Management
          Commission                                                Decision for this.

          Agreed-Upon Procedures for                                The Corporation
          Corporation for National and                              issued a Draft
  12-14   Community Service Grants          $244        2/27/2013   Management
          Awarded to the Michigan                                   Decision on
          Commission                                                9/27/2013 for this.
                                                                    The Corporation
          Agreed-Upon Procedures for
                                                                    has not issued a
          Corporation for National and
                                                                    Draft
  12-15   Community Service Grants          $560        2/28/2013
                                                                    Management
          Awarded to the Operations
                                                                    Decision for this
          Reach, Inc.
                                                                    report.
          Agreed-Upon Procedures for                                The Corporation
          Corporation for National and                              has not issued a
  12-16   Community Service Grants         $1,895       3/27/2013   Draft
          Awarded to the New Jersey                                 Management
          Commission                                                Decision for this.
                       Total               $3,090




                                                                                             35
Tables
V. Reports Described in Prior Semiannual Reports without
Final Action



     Report                            Title                          Date         Final Action
     Number                                                          Issued           Due*
      12-04       Audit of Earned Education Awards Resulting         11/9/2011         11/09/12
                  from Compelling Personal Circumstances
      12-08       Audit of Trust Payments to Education &             4/3/2012          04/03/13
                  Financial Institutions
      12-09       Evaluation of the Corporation’s OMB Circular A-    5/11/2012         09/30/13
                  133 Report Monitoring Process
      12-10       IPERA Compliance Evaluation                         3/7/2012          03/07/13
*Under section 6009 of the Federal Acquisition Streamlining Act of 1994, as amended, a final
management decision must be made within six months of the issuance of the final report and corrective
actions must be completed within one year.




36
                                                                                               Tables
VI.   Audit Reports Issued




                             April 1, 2013-September 30, 2013


 Report                                                Dollars      Dollars        Funds Put To
                       Report Name
 Number                                              Questioned   Unsupported       Better Use

                                                               (Dollars in thousands)
          Performance Audit of Corporation Grants
 13-05A       Awarded to Atlantic City Human           $868            $0               $734
                     Resources, Inc.
            Supplemental Report of Corporation
 13-05B   Grants Awarded to Atlantic City Human         $0             $0               $0
                      Resources, Inc.
          Agreed-Upon Procedures for Corporation
            for National and Community Service
  13-06                                                $348            $0               $0
            Grants Awarded to Edna McConnell
                      Clark Foundation
          Inadequate Internal Controls Prevent the
           Corporation from Mitigating Significant
  13-07                                                 $0             $0               $0
            Sisks Inherent in the Fixed Amount
                      Grants Program
                          TOTAL                       $1,217           $0               $734




                                                                                                   37
